   Hotline Review             October 6, 2011

Hotline Complaint Involving Auditor Independence
  at a Field Audit Office in the Defense Contract
          Audit Agency Western Region

         Report No. DODIG-2012-002
Additional Information and Copies
The Department of Defense, Office of the Assistant Inspector General for Audit Policy
and Oversight, prepared this report. To obtain additional copies, visit
www.dodig.mil/audit/reports or contact the Office of the Assistant Inspector General for
Audit Policy and Oversight at (703) 604-8760 or fax (703) 604-8982.

Suggestions for Reviews
To suggest ideas for or request reviews, contact the Office of the Assistant Inspector
General for Audit Policy and Oversight by phone (703) 604-8760 (DSN 664-8760), by
fax (703) 604-8982, or by mail:

                      OAIG-APO
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 833)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
DCAA                  Defense Contract Audit Agency
GAGAS                 Generally Accepted Government Auditing Standards
FAO                   Field Audit Office
                                     INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DR IVE
                                 ARLINGTON, VIRGINIA 22202-4704




                                                                                   October 6, 20 11


MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT: Report on Hotline Complaint Involving Auditor Independence at a Field Audit
         Office in the Defense Contract Audit Agency Western Region
         (Report No. DODIG-2012-002)

We are providing thjs repmt for your information and use. We performed the review in response
to a DOD Hotline complaint. While we did not substantiate the Hotline complaint, we found that
Defense Contract Audit Agency (DCAA) management failed to adequately and timely remove
an auditor' s independence impairment in accordance with generally accepted government
auditing standards. DCAA implemented several corrective actions following the issuance of our
Notice of Concern on May 6, 2011 , such as the implementation of revised training on auditor
independence impairments.

In preparing this repmt, we considered management comments and actions taken in response to
the nine recommendations contained in our Notice of Concern. We request that DCAA provide
additional comments for Recommendations 5, 7, and 9. We should receive the comments by
November 7, 2011.

DOD Directive 7650.3 requires that recommendations be resolved promptly. Please provide
comments that state whether you agree or disagree with the findings and recommendations . If
you agree with our recommendations, describe what actions you have taken or plan to take to
accompli sh the recommendations and include the completion dates of your actions. If you
disagree with the recommendations or any part of them, please give specific reasons why you
disagree and propose alternative action if appropriate.

If possible, send a .pdf file containing your comments to the address cited in the last paragraph of
this memorandum. Copies of your conm1ents must have the actual signature of the authorizing
official for your organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over
the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to our staff. Questions should be directed to Ms. Carolyn
R. Davis at (703) 604-8877 (DSN 664-8877), carolyn.davis@dodi .




                                    Randolph R. Stone, SES
                                    Deputy Inspector General
                                      Policy and Oversight
Report No. DODIG-2012-002 (Project No. D2011-DIP0AI-0109.000)                 October 6, 2011



              Results in Brief: Hotline Complaint
              Involving Auditor Independence at a Field
              Audit Office in the Defense Contract
              Audit Agency Western Region

What We Did                                       Management Actions and
We reviewed a DOD Hotline complaint               Our Response
concerning the relocation of an auditor in
                                                  In response to our Notice of Concern,
the Defense Contract Audit Agency
                                                  DCAA took several actions. Among them,
(DCAA) Western Region for independence
                                                  DCAA management:
reasons. According to the complaint, the
auditor’s independence was not impaired,          • rescinded an audit report issued on one
and management should not have acted on a             of the audits affected by the impairment,
DOD contractor’s request to relocate the              and assigned the audit to another field
auditor.                                              audit office to redo and supervise;
                                                  • assigned the other two audits affected by
                                                      the impairment to another field audit
What We Found                                         office for completion;
We determined that the relocation of the          • issued an alert to all DCAA employees
auditor was justified. However, our review            which emphasized the need to fully
disclosed that DCAA field audit office                eliminate independence impairments in a
management failed to take measures                    timely manner; and
necessary to eliminate the auditor’s              • revised its training on the identification
independence impairment in accordance                 and removal of auditor independence
with generally accepted government                    impairments.
auditing standards. DCAA did not reassign
three audits affected by the independence         In addition, DCAA plans to implement
impairment to another auditor for                 procedures for investigating contractor
completion. In addition, DCAA field audit         complaints of auditor misconduct and
office management did not initiate an             consider appropriate administrative action.
investigation of DOD contractor complaints        However, we do not consider the
made against the auditor, even though some        management actions to be fully responsive
of the complaints would have constituted          to three of the nine recommendations
misconduct. In May 2011, we issued a              contained in our Notice of Concern.
Notice of Concern to the Director of DCAA,
recommending several corrective actions for
eliminating the independence impairment
                                                  Management Comments
and improving related controls. (See              We request that the Director of DCAA
Appendix B)                                       provide additional comments in response to
                                                  this final report. Please see the
                                                  recommendations table on the following
                                                  page.

                                              i
Report No. DODIG-2012-002 (Project No. D2011-DIP0AI-0109.000)     October 6, 2011




Recommendations Table

                  Management                   Recommendations Requiring Comment
Director, Defense Contract Audit Agency        5, 7, and 9


Please provide comments by November 7, 2011.




                                          ii
Table of Contents

Introduction

   Objectives                                                           1
   Background                                                           1

Finding. Relocation of an Auditor for Independence Reasons              3

      Notice of Concern, Management Actions, and Our Response           9

Appendices

      A. Scope and Methodology                                         13
      B. DOD Inspector General Notice of Concern                       15
      C. Defense Contract Audit Agency Comments to Notice of Concern   23
Introduction
Objectives
We conducted this review to determine the validity of a complaint received by the DOD
Hotline concerning DCAA management’s decision to relocate a DCAA auditor to
another office location because management believed the auditor’s independence had
been impaired. The complainant disagrees with management’s decision that the auditor’s
independence had been impaired, and believes management should not have acted on a
DOD contractor’s request to relocate the auditor. See Appendix A for details of our
scope and methodology.

Background
Defense Contract Audit Agency (DCAA)
DCAA performs contract audits and provides accounting and financial advisory services
in connection with the negotiation, administration and settlement of DOD contracts and
subcontracts. DCAA operates under the authority, direction, and control of the Under
Secretary of Defense (Comptroller).

Organizationally, DCAA includes a Headquarters, Field Detachment, and five regions:
Central, Eastern, Mid-Atlantic, Northeastern, and Western. Each region maintains
several field audit offices (FAOs), and each FAO is comprised of multiple audit teams.
In addition to having a main office location, some FAOs maintain sub-offices at larger
DOD contractor facilities. An FAO manager oversees each field audit office, and a
supervisor leads each audit team. The FAO manager reports to a regional audit manager.
Depicted below is a simplified organization chart of a typical FAO.

       Figure: Typical FAO Organization Chart




                                           1
The allegations addressed in this report involve one FAO in the Western Region.

Generally Accepted Government Auditing Standards (GAGAS)
DCAA must comply with GAGAS, which are issued by the Comptroller General of the
United States. GAGAS incorporates certain standards issued by the American Institute
of Certified Public Accountants. We used the GAGAS standards contained in the “July
2007 revision” as criteria for this review. Although the Comptroller General issued a
“2011 Internet Version” of the standards on August 19, 2011, the new standards do not
take effect until December 15, 2012.

The DCAA Contract Audit Manual prescribes auditing policies and procedures for
performing audits in support of the DCAA mission. The Contract Audit Manual
incorporates GAGAS into its guidance.




                                           2
Finding. Relocation of an Auditor for
Independence Reasons
We did not substantiate the complainant’s allegation. The auditor’s independence was
impaired, requiring that DCAA management relocate him from a sub-office to the main
field audit office. However, DCAA management failed to take other actions necessary to
remove the independence impairment in accordance with GAGAS. After management
had identified the impairment, they did not reassign the audits affected by the impairment
to another auditor, or document the actions they took to eliminate the impairment.
DCAA management also failed to properly investigate allegations of wrongdoing made
against the auditor. In response to our May 6, 2011, Notice of Concern, DCAA is taking
steps to resolve the independence impairment, improve related procedures, and impose
appropriate administrative action.

Allegation
The complainant alleged that DCAA management at a field audit office (FAO) removed
an auditor from a DCAA sub-office without justification. The complainant disagrees
with management’s decision that the auditor’s independence toward the DOD contractor
had been impaired, which management cited as the reason why they relocated the auditor.
The complainant believes DCAA management violated the auditor’s own independence,
by relocating the auditor at the request of the DOD contractor.

Background
On October 6, 2010, the FAO auditor and his supervisor met with representatives of a
DOD contractor to discuss an outstanding request for information. Following the
meeting, one of the contractor representatives met privately with the supervisor to advise
him that the auditor had exhibited inappropriate behavior toward several contractor
employees. Later that day, the supervisor told the auditor about his private discussion
with the contractor representative, and counseled him to be professional at all times. The
next day, the auditor sent an email to the contractor’s Chairman to express his frustration
over the claims of inappropriate behavior. Within the email, the auditor wrote in part:

               [The contractor] has a termination claim that is filled with frivolous
               costs and I have been diligently working to analyze and question this
               claim….I also hope you speak to [the contractor’s legal counsel] and
               make him realize that his slanderous accusations will only increase my
               diligence. (names omitted and emphasis added)

The auditor did not include his supervisor on the distribution of this email.

On November 1, 2010, the DOD contractor’s legal counsel met with the supervisor to
discuss his concern that the auditor might not be objective in performing audits of his
company. The legal counsel provided the supervisor with a copy of the auditor’s email
he sent to the contractor Chairman, and statements from 11 unnamed contractor
employees who allegedly witnessed the auditor’s inappropriate behavior.



                                                 3
The supervisor advised the FAO manager and the Regional Audit Manager of his
meeting with the contractor’s legal counsel. They mutually agreed that the auditor’s
independence had been impaired based on the email he sent to the contractor’s Chairman.
On November 2, 2010, the supervisor verbally advised the auditor that DCAA
management believed his independence had been impaired and directed the auditor to
move his office from the DOD contractor facility sub-office to the main FAO location.
However, the supervisor also directed the auditor to continue working on audits of that
contractor which had already been assigned to him. The Regional Auditor Manager
advised the Acting Deputy Regional Director of the actions taken to resolve the perceived
independence impairment.

Our Review
We interviewed the auditor, his supervisor, the FAO manager, two Regional Audit
Managers and the remaining members of the auditor’s audit team. We placed most
interviewees under oath, we recorded the interviews, and we obtained a transcription of
the interviews. In addition, we reviewed applicable auditing standards, regulations, and
agency procedures. We also reviewed written communications and other agency
documents.

Objectivity and Independence Requirements
Generally accepted government auditing standard (GAGAS) 2.10, “Objectivity,” states:

               The credibility of auditing in the government sector is based on
               auditors’ objectivity in discharging their professional duties.
               Objectivity includes being independent in fact and appearance when
               providing audit and attestation engagements, maintaining an attitude
               of impartiality, having intellectual honesty, and being free of conflicts
               of interest. Avoiding conflicts that may, in fact or appearance, impair
               auditors’ objectivity in performing the audit or attestation engagement
               is essential to retaining credibility. Maintaining objectivity includes
               a continuing assessment of relationships with audited entities and
               other stakeholders in the context of the auditors’ responsibility to the
               public. (emphasis added)

Further, GAGAS 3.02 states:

               In all matters relating to the audit work, the audit organization and the
               individual auditor, whether government or public, must be free from
               personal, external, and organizational impairments to independence,
               and must avoid the appearance of such impairments of independence.
               (emphasis added)

An example of a personal impairment listed in GAGAS 3.07 includes “Preconceived
ideas toward individuals, groups, organizations, or objectives of a particular program that
could bias the audit.”

We agree with the FAO management decision that the auditor’s independence toward the
contractor had been impaired. The auditor’s October 7, 2010, email clearly reflects a
lack of objectivity and independence. His characterization of the Termination Claim


                                                  4
(hereafter referred to as Termination Settlement Proposal) as being “filled with frivolous
costs” before completion of the audit process indicates an element of bias. Moreover, the
auditor’s statement that the “slanderous allegations would only increase my diligence,”
demonstrates that his objectivity and impartiality toward the contractor had been
impaired either in fact or appearance. Moving the auditor’s office location from the
contractor’s facility was one of the necessary steps in eliminating the independence
impairment.

Furthermore, we found no evidence suggesting that the DOD contractor had unduly
influenced FAO management’s decision to relocate the auditor from the FAO sub-office.
According to the supervisor’s notes of his meeting with the contractor’s legal counsel, the
contractor wanted to make the supervisor aware of the employee complaints and the
auditor’s October 7, 2010, email sent to the contractor’s Chairman, but the contractor did
not ask DCAA to relocate the auditor. The evidence reflects that FAO management’s
decision to move the auditor was based on their independent concern over the auditor’s
objectivity and independence as a result of his October 7, 2010, email. Accordingly, we
did not substantiate the complainant’s allegation.

DCAA Management Failure to Adequately Remove the
Independence Impairment
We strongly disagree with DCAA management’s decision to have the auditor continue
working on audits of the contractor affected by the impairment. That decision is
inconsistent with management’s responsibility to resolve independence impairments in
accordance with GAGAS 3.09, which states:

               When the audit organization identifies a personal impairment to
               independence prior to or during an audit, the audit organization should
               take action to resolve the impairment in a timely manner. In situations
               in which a personal impairment is applicable only to an individual
               auditor or a specialist on a particular audit, the audit organization may
               be able to eliminate the personal impairment. For example, the audit
               organization could remove that auditor or specialist from any work on
               that audit….(Emphasis added)

Based on the nature of the impairment, all of the auditor’s assignments involving the
contractor were impacted by the impairment. To resolve the impairment, FAO
management had an obligation to reassign all of the auditor’s assignments involving that
contractor to another auditor in a timely manner, and determine the extent to which
additional work should be performed or steps redone. FAO management’s failure to take
these steps resulted in a noncompliance with the GAGAS independence requirement.
FAO management also did not comply with DCAA Contract Audit Manual (CAM) 2-
S103.1b.(5), fourth bullet, which states:

               No auditor with a personal impairment will be permitted to work on
               any assignment that is affected by the impairment.

On November 2, 2010, shortly after management verbally notified the auditor of his
independence impairment, the auditor asked his supervisor to assign his current audit to
another auditor due to the perceived impairment.


                                                  5
In his email to the supervisor, the auditor wrote:

               …I would also request that someone else finalize the 4600.002
               termination. I have lost respect for this company due to its recent
               personal attack and think that they could use this fact against DCAA in
               negotiations because my removal will be viewed as an independence
               issue.

Yet, FAO management still failed to take action. As of November 2, 2010, the auditor
had three assignments involving the contractor. As shown below, our review of the
auditor’s time charges disclosed that he charged 443 hours to these three audits after
management notified him of the independence impairment (from November 2, 2010 to
April 9, 2011).

       Table: Auditor Hours Charged on Impaired Audits
           Audit                                                          Hours Charged
           Description                         Assignment No.*           (11/2/10 – 4/9/11)
           Termination Settlement
           Proposal                         XXXX-2010E17100001                         280
           Floor Check                      XXXX-2010E10310001                         133
           Paid Voucher                     XXXX-2011E11015001                          30
                                                          Total Hours                  443
           *The first four digits of the actual assignment number have been omitted.

This represented 71 percent of the auditor’s total direct hours charged for that period. On
March 24, 2011, the FAO manager issued the report on the Termination Settlement
Proposal and questioned 92 percent of proposed costs. FAO management allowed the
auditor to conduct the exit conference with the contractor on his own, despite the
impairment determination and the contractor’s allegations of inappropriate auditor
behavior.

Finally, we noted that FAO management did not document the steps they took to resolve
the independence impairment (such as the transfer of the auditor to the FAO main office),
either in FAO files or in written communications with the auditor. CAM 2-S103.1(5)
states, “The supervisor/FAO manager’s resolution of any impairment should be
documented.” FAO management should have prepared a memorandum to the auditor
which included their rationale for the independence impairment determination.

Our Interviews with DCAA Management
We interviewed the FAO manager and supervisor to determine why they had the auditor
continue working on the three audits after their independence impairment determination.
Both the FAO manager and the supervisor stated that most of the work on the
Termination Settlement Proposal audit had already been completed before they identified
the impairment. The FAO manager also commented that the auditor had spent hundreds
of hours on the assignment and said, “I don’t want to lose those hundreds of hours or, you
know, affect the successful completion of the audit.” In addition, the supervisor pointed
out that “because it (the Termination Settlement Proposal audit) was going to go through


                                                  6
many levels of review, it would be acceptable for him to complete that audit.”
(clarification added)

Regarding the Floor Check, both the FAO manager and supervisor felt that having the
auditor continue working on this audit was acceptable because major parts of the audit
were being conducted as an assist audit by another DCAA office.

We also interviewed the Regional Audit Manager who had cognizance of the FAO on
November 2, 2010 (hereafter referred to as the first Regional Audit Manager). He agreed
with the FAO manager and supervisor that the auditor could continue performing the
Termination Settlement Proposal based on their assertion that the field work had been
completed. He stated that he instructed the FAO manager and supervisor to review the
impact of the independence impairment on the Termination Settlement Proposal and, if
necessary, disclose the impairment in the resulting audit report, in accordance with
GAGAS. His understanding was that the FAO manager would reassign the Floor Check
and Paid Voucher reviews to another auditor because significant field work still had to be
performed. On January 30, 2011, cognizance of the FAO transferred to a second
Regional Audit Manager. The second Regional Audit Manager told us he approved the
issuance of the Termination Settlement Proposal audit report, but that neither the FAO
manager nor the first Regional Audit Manager advised him of the auditor’s independence
impairment.

The explanations provided by the FAO manager, the supervisor, and the first Regional
Audit Manager do not justify their actions. Their actions also reflect a fundamental
misunderstanding of the underlying GAGAS objectivity and independence standards. In
resolving an independence impairment before or during an audit, GAGAS does not allow
the agency to consider the hours incurred, or the degree to which the field work has been
completed. DCAA management’s concern over lost auditor hours or other matters must
not override their obligation to timely resolve an impairment of independence in
accordance with GAGAS 3.09. In addition, simply subjecting the audit to a thorough
review upon completion would not have eliminated the appearance that the auditor lacked
objectivity and independence.

Effect on the Failure to Comply with GAGAS
Because management failed to take appropriate and timely action, the legitimacy of any
audit findings impacted by the impairment could be challenged on the basis that the
auditor lacked objectivity and impartial judgment in conducting the audit. Given their
actions in this case, we questioned whether FAO management in this case should be
relied upon for resolving the impairment in a satisfactory manner. To help ensure
objectivity and independence to the extent possible, we recommended that DCAA
reassign any ongoing audits impacted by the impairment to another FAO for completion.
Regarding the audit report issued on the Termination Settlement Proposal, we
recommended that DCAA rescind the report and notify the requester in writing that it
should not be relied upon for any purpose. We further recommended that another FAO
re-perform and supervise the Termination Settlement Proposal audit.

GAGAS 3.08 states that audit organizations should establish procedures for ensuring
compliance with the independence standards, including the establishment of a

                                            7
disciplinary mechanism to promote compliance. CAM 2-S103.1b.(5) notes that
deviations from the agency’s procedures for ensuring compliance with the GAGAS
independence requirements are subject to appropriate disciplinary action. Accordingly,
we suggested that DCAA consider appropriate administrative action for the failure to
exercise proper professional judgment and to comply with GAGAS and applicable
agency procedures.

We do not know the extent to which other significant failures to comply with the
GAGAS independence standard have occurred within DCAA. DCAA needs to assess its
current training and procedures for ensuring compliance with the independence
standards.

Inappropriate Management Response to Contractor Complaints
The FAO manager and supervisor (in consultation with the first Regional Audit Manager)
chose not to investigate the contractor complaints against the auditor. They also did not
show the complaints to the auditor to obtain his account of the alleged behavior. The
supervisor had consulted with a Regional Human Resources Specialist who
recommended that the FAO investigate the complaints. If accurate, some of the
complaints would constitute misconduct and be subject to disciplinary action.

On January 27, 2011, 3 months after the supervisor received the complaints from the
contractor’s legal counsel, the auditor met with the FAO manager and supervisor to
discuss the independence issue. The FAO manager stated to the auditor that, “people do
not lie” when referring to the contractor complaints. This statement was inappropriate
since the FAO manager and supervisor had chosen not to investigate the complaints. We
also question why the FAO manager waited 3 months after receiving the contractor
complaints to discuss them with the auditor.

An appropriate and timely investigation of the contractor complaints would have
established whether there was sufficient evidence of misconduct on the part of the
auditor. It would have also demonstrated that DCAA management took proper action in
response to the complaints, rather than ignore them. DCAA should consider appropriate
administrative action for management’s failure to take appropriate action in response to
the allegations of misconduct.

Our review disclosed that DCAA does not have formal procedures for investigating
contractor complaints of inappropriate auditor behavior. We do not know the frequency
in which DOD contractors complain about such behavior. However, in an April 22, 2011
report, we noted that DCAA’s Internal Review Department reported a similar incident
which occurred in the Northeastern Region. According to the report, a DCAA
Northeastern Region FAO manager and a supervisor treated an auditor disrespectfully
and unprofessionally when they failed to provide the auditor with DOD contractor
complaints against him and failed to conduct an inquiry into the complaints. The report
recommended that the DCAA Headquarters Policy Directorate issue formal guidance on
the proper handling of complaints from contractors. DCAA should make the issuance of
this guidance a priority.




                                            8
Notice of Concern, Management Actions, and Our
Response
On May 6, 2011, we issued a “Notice of Concern” * to the Director of DCAA covering
the failure to adequately resolve the independence impairment and to investigate the
allegations of misconduct (see Appendix B). We identified nine recommendations to
address these failures. In a May 24, 2011 memorandum, the Director concurred with the
recommendations and provided a plan for implementing them (see Appendix C).
Discussed below is a status of actions that DCAA has taken or planned on each
recommendation, and our response to those actions.

    1. Recommendation: Direct the FAO not to assign any new audits of the
       contractor to the auditor who has an independence impairment associated with
       that contractor.

        Management Action: The Deputy Regional Director took the recommended
        action on May 6, 2011.

        Our Response: This action satisfies the intent of the recommendation. No
        additional response to this recommendation is required.

    2. Recommendation: Reassign the Floor Check and Paid Voucher audits
       referenced above to another DCAA region for completion.

        Management Action: As an alternative, DCAA management reassigned the
        audits to another FAO within the same region to perform and supervise. In
        addition, cognizance of all future audit effort of the DOD contractor transferred to
        this FAO on June 20, 2011.

        Our Response: This action satisfies the intent of the recommendation. No
        additional response to this recommendation is required.

    3. Recommendation: Rescind the report issued on the Termination Settlement
       Proposal, and advise the requester in writing not to rely on its results.

        Management Action: In a May 9, 2011, memorandum, the second Regional
        Audit Manager took the recommended action.

        Our Response: The management action satisfies the intent of the
        recommendation. No additional response to the recommendation is required.




*
  A Notice of Concern is issued to alert DOD management of significant findings that require immediate
attention. By issuing a Notice of Concern, DOD management officials can take proactive steps to mitigate
the reported issue.


                                                   9
4. Recommendation: Direct another DCAA Region to re-perform and supervise
   another audit of the Termination Settlement Proposal without relying on any work
   performed by the auditor.

   Management Action: On May 12, 2011, DCAA initiated a new audit of the
   Terminal Settlement Proposal that is being independently performed and
   supervised by another FAO.

   Our Response: The management action satisfies the intent of this
   recommendation. No additional response to this recommendation is required.

5. Recommendation: Issue a memorandum to the auditor which explains the
   rationale for determining that his independence had been impaired and the actions
   taken to resolve the impairment.

   Management Action: On May 20, 2011, the second Regional Audit Manager
   issued a memorandum to the auditor which explains why the auditor’s
   independence toward the DOD contractor had been impaired. In addition, the
   memorandum commented that the auditor’s actions resulted in the rescission of
   the Termination Settlement Proposal, unnecessary duplication of audit effort, and
   the waste of audit resources.

   Our Response: This action does not fully satisfy the intent of the
   recommendation. The May 20, 2011, memorandum, gives an inaccurate
   impression concerning who was primarily responsible for having to rescind the
   Termination Settlement Proposal report and expend additional audit resources.
   FAO management bears the primary responsibility because, had they acted
   promptly to reassign the impaired audits, the agency would have avoided the need
   to rescind the report and expend the additional resources they did to rectify the
   impairment. The auditor had only incurred 51 hours on the impaired audits
   between the time the impairment surfaced on October 7, 2010, and management
   discovered the impairment on November 1, 2010. Rather than take appropriate
   action at that time, FAO management directed the auditor to work on the impaired
   audits for an additional 443 hours (as depicted in the Table on Page 6). Since it
   omits material facts, DCAA management should rescind the memorandum and
   reissue it after making appropriate corrections to it.

6. Recommendation: Issue an “Audit Alert” covering management’s
   responsibility for timely and appropriately resolving independence impairments in
   accordance with GAGAS.

   Management Action: On July 7, 2011, DCAA Headquarters issued the
   recommended “audit alert,” which emphasized the steps that supervisors must
   promptly take to eliminate independence impairments in accordance with GAGAS.

   Our Response: This action satisfies the intent of the recommendation. No
   additional response to this recommendation is required.



                                       10
7. Recommendation: Assess the adequacy of the agency’s ongoing training and
   procedures for resolving independence impairments in accordance with GAGAS,
   and make improvements to help ensure future compliance.

   Management Action: On August 3, 2011, DCAA issued revised training on
   GAGAS independence standards.

   Our Response: This action does not fully satisfy the recommendation.
   Although DCAA changed its training on the independence standards, DCAA has
   provided no evidence indicating that it has assessed related procedures or made
   procedural improvements to help ensure future compliance.

   In addition, we take exception to two aspects of the revised training. First, the
   new training does not adequately address the steps supervisors should take when
   evaluating the impact of an independence impairment relative to work already
   done on in-process audits. The revised training only indicates that the supervisor
   must either require the auditor to eliminate the impairment or assign another
   auditor to perform the work. Second, while DCAA Contract Audit Manual,
   section 2-S103.1, requires that FAO managers and supervisors coordinate with the
   regional office (and DCAA Headquarters if necessary) when eliminating any
   personal impairments, the revised training notes this requirement only for
   impairments which are identified after report issuance.

   On a related note, DCAA should consider requiring FAOs to coordinate the
   elimination of all personal impairments with DCAA Headquarters, as well as the
   regional office, to help ensure compliance and consistency. The guidance
   provided by the Western Regional Office (first Regional Audit Manager) in this
   case was ineffective for ensuring compliance with GAGAS.

8. Recommendation: Develop and issue formal policies and procedures on the
   proper handling of complaints from contractors.

   Management Action: By September 30, 2011, DCAA will develop and
   implement the recommended policies and procedures.

   Our Response: The planned management action is responsive to the
   recommendation. No additional response to this recommendation is required.

9. Recommendation: Consider appropriate administrative action for the failure
   to (a) resolve an independence impairment in accordance with GAGAS and
   agency policy, and (b) investigate a DOD contractor’s allegations of auditor
   misconduct.

   Management Action: By September 30, 2011, DCAA will consider
   appropriate administrative action for the failure to adequately resolve the
   independence impairment. On May 12, 2011, DCAA’s Internal Review
   Directorate established a formal case to investigate the contractor complaints.



                                       11
       Our Response: The planned management action is not fully responsive to our
       recommendation. The May 24, 2011 memorandum we received from the Director
       of DCAA does not indicate whether the agency agrees to consider administrative
       action for the failure of FAO management and the Regional Audit Manager to
       investigate the complaints of auditor misconduct.

       In addition, we discovered that the supervisor included a highly inappropriate
       comment concerning the contractor complaints in the auditor’s performance
       evaluation for the period ended June 30, 2011. The supervisor commented in the
       evaluation that the contractor employee statements “corroborated” the initial
       contractor complaints made against the auditor. This comment is highly
       inappropriate and improper because DCAA has not conducted an independent
       investigation and the supervisor did not have adequate evidence to corroborate the
       complaints. While DCAA’s Internal Review Directorate established a formal
       case to investigate the complaints in May 2011, the Directorate has not yet
       established an approved plan for conducting the investigation. DCAA should
       modify the auditor’s appraisal to remove any reference to the contractor’s
       complaints.

Accordingly, we request that the Director of DCAA provide additional comments with
respect to Recommendations 5, 7, and 9.




                                           12
Appendix A. Scope and Methodology
We performed this review from January 2011 through September 2011. We reviewed the
DOD Hotline complaint to determine if we could substantiate the allegations. As part of
our review, we:

   •   interviewed appropriate DCAA personnel at the cognizant DCAA FAO and the
       Western Regional Office;

   •   obtained and reviewed documents pertinent to the complaint, including those
       maintained by the DCAA FAO, the complainant, and other DCAA personnel; and

   •   reviewed and applied applicable laws, regulations, and professional standards.

We conducted the review in accordance with the Quality Standards for Inspection and
Evaluation.

Use of Computer-Processed Data
We did not rely on computer-processed data to perform this review.

Prior Coverage
In the past 5 years, the DOD Inspector General has issued the following six reports
involving Defense Hotline complaints of DCAA:

   •   Report No. D2011-6-011, Report on Hotline Allegation Regarding Lack of
       Agency Guidance on the Currency of Audit Testing in the Defense Contract Audit
       Agency, September 21, 2011

   •   Report No. D2011-6-010, Failure of Defense Contract Audit Agency, Santa Ana
       Branch Office to Provide Adequate Support in Response to a Request for Review
       of Interim Public Vouchers, September 2, 2011

   •   Report No. D2011-6-008, Hotline Complaint Regarding a Defense Contract Audit
       Agency Employee Conducting Private for-Profit Tax Business Activity on
       Government Time and Using Government Equipment, June 28, 2011

   •   Report No. D-2011-6-007, Hotline Allegations Involving a Field Audit Office in
       the Defense Contract Audit Agency Central Region, April 15, 2011

   •   Report No. D-2011-6-003, Hotline Complaint Regarding Allegations of Abusive
       Behavior by a Supervisor in the Defense Contract Audit Agency Northeastern
       Region, February 10, 2011




                                           13
•   Report No. D-2011-6-001, Hotline Allegations Involving Management
    Harassment of a Complainant in the Defense Contract Audit Agency Western
    Region, October 29, 2010




                                     14
Appendix B. DOD Inspector General Notice
of Concern

                                                INSPECTOR GENERAL
                                               DEPARTMENT OF DEFENSE
                                              400 ARMY NAVY DmV E
                                         ARLINGTON, VIR GIN IA 22202-<1704




                                                                                                     MAY - 6 2BII

   MEMORANDUM FOR DIRECTO R, DEFENSE CONTRACT AU DIT AGENCY

   SUBJECT :           Notice of Concern - NonCOI11I>1illllce Involving Auditor Independence at
                       Defcnse Conlract Audit Agency                    Branch Offi ce

            We are issuing this Notice ofConccrnlo alert you of~ctiol1 s l ~kel1 by Ihe Derense
   C011lracl Audit Agenc), (DCAA),                    Branch Office, which resulted in a
   signi fican t noncompliance with Generally Accepted Government Auditing Stllndards.
   During o ur review of 1\ Dcfense I lotline complaint, we learned that Branch Office
   IlHUlagemetltll ][owed an malitor (0 continue perform ing audi ts of a DOD contracto r,
   despite determi ning that his independence w ilh Ihal contractor Imd been impaired .
   DCAA should ta ke immediate steps (0 resolve the noncompli:lIlce, improve rel ated
   pl"Oecdurcs, al1l1iake nppmprillle ndministralive action.

   Background
          On October 6, 20 I 0, a                   Branch Office supervisor and an audi tor held
   1\meeting with represent,lIives of a DOD contractor to discuss an oulslanding request for
   informn tion. Following the meeting, one of the eontl"8ctor representatives mel privately
   wilh thc supervisor 10 advise him thm the nudilor had exhibited inflpproprillte behavior
   toward §cveral contnlctor employees. Later that day, the supcrvisor told Ihe auditor about
   his private discuss ion with the contractor representati ve, and counseled hil1110 be
   professional at all times. The next day, the audi tor sent an cmailto the COllll1lctor's
   President to express his flllstl"8tion over the claims of ina ppropl"intc behavior. Within the
   email, tile auditor wrote in part:

              {nil'. ermlmc lur} /,nv" Jerrl/hlllliOIl ,",a"m Il ml i.<filled wilhfi"il'ulum cu.,·I.! m,,11
              /u/I'C beell diflg(mlly working /0 mutfJ'Zi! Wid 1J1le.~lioll/hl.f clalm .... 1 al.m hope
              )'0 11speak 10 {rill! CO/lfmc/or 's Icgal cOl/lise/} mid make /,im reo/ize f/rlll his
              sf(lluleroll.< (lCC/loI"aliulIs will ollly i /lUen.fe III)' (Iiligellcc. (Ilames omiued and
              emphasis added)

   The aud itor did not include his supervisor on the distribution of this email.

          On Octobcr 28, 20! 0, the contrnctor's legal cou nsel met with the Branch Offi ce
   superviso r to discuss his COllcel"il that the auditor was 110 longer objective in performi ng
   audits oEhis company. The Icgnl counsel provided the supervisor with <l copy of the
   auditor's elllllil selll to Ihe COlllmclor Presidenl. In addition, the Icg"1 counsel provided
   the supervisor wi th affidavits fmm I I contractor employees who allegedl y wi tnessed the


                                        FOR OFFIClAb US]!; ONbY




                                                              15
        The B1'IInch Orliee supervisor advised the Branch Manager and Regional Audit
Manager of his meeting with the contractor's legal counsel. TIley mutually agreed that
the lIudi toJ"s independence had been impaired as a result of tile email he sent to the
cOlllractor's President. On November 2, 20 I 0, the supervisor verbally advised the auditor
that DCAA 1I11lnagement believed his independence had been impaired and directed the
auditor to move his office frolll the contractor's fllcility to the Branch Offi ce. However,
the supervisor also di rected the auditor to continue working on audits of thm contractor
which had already been assigned to him. The Regional Auditor Manager ndvised the
Acting Dcputy Regional Director of these actions taken to resolve the noncompliance.

Independence Impairment
       We agree with the Branch Offi ce decision that the auditor's independence toward
the contractor had been impai red, based on our review of appl icnble Gcnernlly Accepted
Govern ment Auditing Stnndnrds (GAGAS). GAGAS 2. 10, "Objectivity," states

           The credib!lily <if (/Ildilillfl, III lite fl,OI'l!I'lIIlIelll UClaI' is limed 011 audiIO/'S '
           objectiv!I)' ill di.,'c//(/rging Iheir professio,wl dillies, Objecti,'lly illeludes being
           i//{Iepelltiel!l ill fOCI (In d IIppl!(lf(lnCC when providing audil and al/eslalioll
           ellfl,(1fl,elllenls. JIIllillll,illinJ: "" III/iflll/e of im/J(.rlia/lty. IU"'il/g i"I,dlec/llol hom,,'ly,
           alld beillg free of conjlicls of inleresl. Al'llii/illK cU/iflicl.~ "/(/1 ilia),. ill f(le/ VI'
           appeal'llJlce. impltlr alldilors' objecl;,'i!), ill JU!lforming Ihe (fI1(1i1 or (Illeslrllioll
           ellgagelllelll is essen/ia/lo relainlllg credibilily. M(/iI,/(/i" /"g objectil'ily ii/chilIes
           (/ collliJlltillg al'Yes~'",e/lt of reh'liollsflips wilh III,,/iletl ell /Illes (I11d (Ilhe"
          .!lakellOlders i/l Ihe COllle.l'l of 'he (luditors' I'('sponsibiJity In III/! pl/bric, (emphasis
           Rdded)

       FUither, GAGAS 3.02 states:

          {II III! nWllers rellllilig 10 Ille {//I('il work, Ihe {llidit ol'glmization /1m' lite IlIIlhit/n{/1
          IlIId;lor. ",hellll!/" gO"emmelll 0/' pllblie. ""1S1 he free jYJII/ l,er.'om,l. e,\'lel'l/<lI, ""d
          organizational illlp((;rmellls 10 11II1"IJendmce. and musl avoid I/te appellrm/ce of
          such impail'll/ell/.I' ofimlepcmlellce.

       An example ofll persons] impairment listed in GAGAS 3.07 incl udes
"Preconceived idcns toward individuuls, groups, orgollizations, or objectives ora
pm1 ieulnf progmlll that could billS the audit."




                                                    2
                                      fO R O(1 PIC IAL USE O NL Y




                                                           16
         The lIuditor's email sent to th e eont11letor's Presidcn t (shown on Pugc I of this
memorandum) elellrly reflects II lack ofobjccti vity and independencc. His
eharllcteri7.ll1ion of the Termina l Claim as being " filled wi th frivolous costs" bcfore the
completion orthe audit proccss indicatcs an clemcnt of bias, Moreover, the auditor's
slat cmcnt that thc "s landcrous allegations woul d onl y increase my di ligcnce,"
dcmonstrates that his objecti vi ty and impartial ity toward Ihe eon trnclor had been
impnil'cd either in £1cl or appearance. Moving Ihe employcc's office frol111 hc
co ntra ctor's location was onc ortlle nccessary steps in climinating the impairment.

       Howcver, we strongly disagree w ith managemcn t's decision to have the audi tor
continue working on audits of tlHlt cont ractor, This decision is inconsistent wit h
managemen t's responsibi lity to resolve independence impairments in aceO!'dance with
GAGAS 3.09, which stat es:

              When Ihe mulil orgrmlwlltm idelllijies a pcrsO/utf implIil'lnelil 10 illllepemlence
              prlor,o 01' ("wing <III (wd',. II." ""dil m'g<miwlim/ sh,,"1d 1,,1e~ <>cfiull fo resol",!
              till' illllx l il'lwlIl ill II filllel), 1Il("'"U . 11/ situalia/!.< ill which (( pe7sQlwl
              i"'l"lirllll!/11 is ul'plic(lble unly 10 1/11 individual (lIIdilOI' 01' (/ speciali"l 011 "
              pm'lieular (/udil. llie alldil urg(lIIizatioll may be able /0 ~/illlill((tl! Ihe }JI!l'smwl
              impairmellt. For e.mmple. Ihe (llIdit orgmlimliQlI could remal /(' Ihlll Imdifa" or
              specialist fi'alll (/ltV "'(!f~ all 11/(/( ((udil ... .(Em phasis added)


          Based on th e nature o f this personal impairment, all of Ihe auditor's assignmcnts
involving thc contractor were impacted by the im pairment. To resolve the impairment,
the Branch Office had an obligation to reassign all oflhe audi tol"s assignmenls involving
th at con tractor to another au ditor in a timely lIlanner, and determine the extcnt to which
additional work should be performed or steps redone. The fail ure ofthe Branch Offic e 10
take thcse steps resulted in a nonco mpliance with the GAGAS indepcndcnec requirement.
n ,c Branch Oflicc also did not compl y with DCAA Contract Aud it MRllual (CAM) 2-
S I 03 .1 b.(5), fourth bullet, which clearly stines:

           No 11,,(/;101' willi a pel;mllal IIIl/wirll/em \I'm be }JI!l'IIlifled              flJ   h'fI/'k 011 (IllY
           a,f.<igllm~I/II""fis <lfI~efed by Ih" i"'l'dl'mell'.

        On November 2, 20 I 0, shortly aller rmmagcment notifi ed the auditor o f his
independence impairment, the auditor ack nowledged the impairment and asked Iris
su pervisor to assign his current audit to another auditor. In his ctl1f]il to the supervisor,
the auditor wr01e:

           ... l would (lIsa relJlle.!l Ih{/{ SOllleOl/e else jilla/ize IIII.' 460().OOl Urlllllllui(JlI. I {/(I\'('.
           lo;'ll'fliJX'CI/oI' Ihis " Oil/pUll)' dll" 10 it.< r~cel/t persol/(I{ aI/trek olld thi,,1e flllll Ihe),
           could I/,\'/! 'ills fac! (ll]aill.l/ DCAA ill trega/imiOlIS becallse my relllaval will be
           I'iell'ed (IS 1111 IIIdependence issue.




                                                             3
                                       "OR OFF'I ClAb USB ON bY




                                                            17
       Yet, Branch O ffice manageme nt still fa iled to take action. As of
November 2, 20 10, the !luditor Imd th ree assignments involving the eontmctor. As shown
below, Ollr review of the Il uditor's time charges discloscd tha t the audi tor ehllrged 443
hours to these th ree ass ign ments after nHlllagcmenl noli tied him of the independence
impairment (from Novcmber 2, 20 I0 to April 9, 20 II).




                                                        "
       This rep resented 71 perccnt o f the tota! direct hours charged by the nuditor for this
time period. On March 24, 20 II, the Branch Office issued its report 0 11 the Termination
Proposal and quest ioned 92 perccnt of propos cd costs. DCAA Branch Office
management allowed the auditor to conduct thc exi t conference with the cO nl rnctor on his
OWIl, despi te their prior impairment detcrmination li nd the contractor' s allegations of
inllpproprillle behavior.

        Finally, we noted thm DCAA Branch Office managemen t did not documc nt the
stcps they took to resolve the indepcndenee im pairment (e,g., tra nsfcr ofthe audi tor to the
Branch Office), either in Branch O ffi ce files or in communications wit h the auditor.
CAM 2-S 103.1(5) states, "The supervisor/FAO manager' s resolut ion of any impairm ent
should be documented," Bt'1lneh Omce managemelll should have prepared II
memorandum to the aud itor which included thei r rationa le for the independence
impairment determirmtion.

Interviews with Western Region Employees
           We interviewed the supervisor and branch manager to determine why they had the
aud itor continue wo rking on the three audi ls lifter their independence impairmcnt
determinatioll. Regard ing the Termination Proposal audi t, both the supcrvisor and bmnch
manager st!lted tha t most of the work had already been completed before they identi fi ed
the impairment. The Bmnc h Managcr also commented tha t the auditor' had spent
hundreds orhours on the assignment and said, "J don't wllnt to lose those hundreds of
hours or, you know, affect the successful completion of the audit." In addition, the
supervisor pointed out that " beeallse it [the Termination Proposal auditJ was going to go
through many levels of review, it would be aeceptablc for him to complete tha t audit."
(clari fi cation added)

       Regarding the Floo r Check, both the branch manager and supervisor felt Ihot
hllving the lludilOr continue working on this audit was Ileee pta ble because major parts of
the audit were being conducted as an assist audit by another DCAA fie ld office.


                                        4
                              FOR OFFICIAL USE ONLY




                                             18
        We also interviewed the Regional Audi t Manager who hod cogniznnce of the
Branch Office 011 November 2, 20 I 0 (he reafter relcrred to as the in itia l Regional Audit
Manager). T-Ie agreed wit h the Branch Office that the auditor could continue performing
the Termination Pmposal because the manager and supervisor told him that the field
work had been completed. He stated that he instructed the 13ranch Office to review the
impact of the independence impairillent on the Terillinatio n Proposal and, if necessary,
disclose the illlpairment in the resuiting audit rep0l1, in accordancc with GAGAS.
Regarding the remaining audits, his undcrstandi ng was thal the Bnmch Office would
reassign thcm to another auditor bccause signi rt cont rtcld work still had to bc performed.
On January 30, 20 II , cognizance of the Oranch Office tfllnsfcrred to another Regional
Audit Manager. Thc slIccessor Regional Audit Manager told liS lIc approved the issuance
of the Termination Proposa l audit report, but that neither Branch Office managemcntnor
the initial Regional Aud it Ma nager advised him of th e aud itor's impairmcnt associatcd
with that contractor.

       The ex planations provided by the supcrvisor, the Branch Manager, and thc initial
Rcgion Audit Mannger do not justify their actions. Thcir actions also reflect a
fundallienttllmisundcr5ttlnding of the underlying GAGAS independenec standard. In
resolving an independence impairment before 01" during an audit, GAGAS does not allow
the Agenc)' to considcr the h ours incurrcd, or !he degree to which the ficld work has been
c(lmplcted. Management's Concern (lVCf I(lst auditor hou rs or othe1" matters must never
override their obligation !o timely resolve an independence impairment in accordance
with GAGAS 3.09. In addition, simply su bjecting the audit to a thorough review upon
completion would not have eliminated the appearance that the Il uditor lacked objectivity
and independence.

        Because management fai led to take appropr iate and timely action, the legitimacy
of any audit findings impact ed by the impainnent could be challenged on the basis that
                                                                               ii"'i'id. _!l1
the auditor lacked objectivity and impartia l judgment in conducting the aUd.;i'
reporting the results. Given their actions in th is case, wc question whether
Branch Office managcmcnt and Western Region management should be rel ied upon for
resolvi ng this impairment in a satisfactory manner. To help c nsurc objectivity and
independence to the extent possible, DCAA should assign !lny rCI!I!li ning audits impacted
by thc impairment to another Reg ion for completion. No rel iance should bc placed on the
auditor's work. Regarding tIle Budit rcport isslled on the Term ination Proposal, DCAA
should rescind the repo rt and notify the reqllester in writing t1mt it should not be rclied
llPon for any purpose. The T erminmion Proposal should be redone by !lnother Region.
unless negotiations have been completed and another audit would serve lIO useful
purpose.

       GAGAS 3.08 states that audit organ izations should establish procedures for
ensuring the independence stAndards, including the establishment of a discipli nary
mechanism to promote compliAnce wi th thosc procedUres. CAM 2-S 103. 1b.(S) notes that

                                           S
                             FOR OrJ' ICl o'\ b USE ONbY




                                            19
deviations frem the Agency's procedurcs for cnsuring compliance wi th the GAGAS
independencc requircments arc subject to appropriate disciplinary action. A:cordingly,
UCAA shoutd consider approprmte administrative action f{)r the failu rc to c);;(reise
proper professional judgment multo c{)mply with GAGAS and applicablc Agency
procedures.

       We do not know the extent to which othcr significant fai lurcs to comply with the
GAGAS independence standard ha\'c occurred within the Western Region OJ' Throughout
the Agency. DCAA t:ecds to rcassess its eurrcntlraining and procedures for ensuring
cOlnpliance with thc indepcndence standards.

Contractor Complaints
        Branch Office manHgement (in consuhation with th~ ini tial Regional Audit
Mllnaga") chose nOlto investigate the contractor complain!s against the HlId ilcr. OrHnch
Office managcment did not cvcn show thc complaints to the auditor to obtain his account
of the alleged bchavioc. The supervisor had consuited with a Regional Human Resources
Specialist who recommended that the Branch                   t the complaints. If
accurate, some               'n       I                       ami be subject 10
disciplinary

       On January 27, 20 I J, the auditor mel with the Branch Managcr and supervisor to
discuss the independence issue. According to accounts of the meeting fi"()m
                 t         h                                               a.,,.te. "i"i'."i"'
                                                     the auditor !;tight have
                                                              lbe Branch Manag~r statcd to
 h audi:or thaI, "People do not lie" when referring to the oon!mctor complaints. This
statemeUl was inappropriate since the Branch Office had choseu not to i nvesti~dte the
complaints. We also question why thc Branch MBnagcr waited 3 months after receiving
the con tractor complaints 10 discuss them with the al!ditor.

         An appropriate and timely investigation ofthc COnTractor complaints wJuld hHve
established whether therc was sufficient evidence of miSCOl1![llct on the PHf! of the
alldi tor. It would have also demonstrated that DCAA nmnngement took proper action in
response to the compl!ints, rather than seemingly ignore them. nCAA should consider
appropriate administrative action fOI nmnagement"s failurc to take appropriate action in
respoJlSe to the contractor's allegations of misconduct.

        Our review disclosed that DCAA doe.~ not have formal plOeedures [01
inve.~t igating
              contractor complaints of inappropria:e auditor behavior. We do not know
the frequency in which DOD e{)ntractors complain about sneh behavior. However, in an
April 22, 2011 report , we noted that DCAA's Imernal Review Department repo!1ed a
similar incident which occurred in the Northeastcrtl Regior.. Ac~on1ing to the fCport, a
DCAA Northeastern Region branch 1J11l11agcr and a supervisor treated an aud itDr


                                            6
                             FOil Ol1llJC IAb USE ONbY




                                           20
disrespectfully and unprofessiona lly whcn they failed to provide the auditor with DOD
contractor complaints against him and failed to conduct an inquiry into the complaints.
Thc rep0l1 recommended that DCAA l-!ead'luarters Pol icy issue formal guidancc on the
proper handling of complaints from contractors. DCAA should make the issuancc of this
guidance a priority.

Recommendations
       We recommend that the Director, Defense Contract Audit Agency, take the
following actions:

          I. Direct the                  Branch Office nollo assign any new audi ts of Ihe
             contractor 10 the auditor who has an independence impairment associated
             wilh that contractor.
         2. Reassign the Floor Check and Paid Vouchcr audits referenced abovc to
             another DCAA Region for completion.
         3. Rescind Audit Report No. _           2010EI7100001, dated March 24, 20 I I,
             regarding an ,mdit of a Termination Proposal, and advise the requester in
             writing not 10 rely on its results.
         4. Direct another DCAA Region to re-perform and supervise another audit of
             the Termination Proposal wilhout relying on any work performed by the
             auditor.
         S. Issue a memorandum to the auditor which explains the rfItionale for
             determining that his independence had been impaired and the actions taken
             to resolve the impairment.
         6. I S~\le an ~Audit Alert" covering management 's responsibility for timely and
             appropriHtely resolving independence impairments in aeeordam:c with
             Generally Accepted Government Amliting Standards.
         7. Assess the adequacy o f the Agency's ongoing training lind procedures for
             resolving independence impairments in IIccordnnce with Generally
             Accepted Government Auditing Standards, and make improvemcnts to hel p
             ensure future compliance.
         8. Develop ond issue fOfmul policies and procedures on the proper h(lIldling of
             complaints from contractors.
         9. Consider appropriate administrative action for the fnilure to:
                 a. resolve an independence impairment in aecordllllce with Generall y
                     Accepted Government Auditing Standards and Agency policy, and
                 b. investigate a DOD contractor's allegations of Iluditor misconduct.




                                           7
                           FOR OFFICIAL USE ONLY




                                          21
Closing Remarks
        Plcasc providc a writtcn responsc 10 our recommendations by JU IlC 6, 2011,
includi ng planncd corrective actions, Wc IIrc continuing our TCview ofthc underlying
DOD Hotli ne complain!. OllCC we complete our review, we wi ll issue a report on the
issues IIddressed in this memoranduill along with IIny addi tional matters that might eome
to our attention. [fyou have any quest ions regard ing this mcnlOJ"andul1l, please contact
me at (703) 604-8877, or Ms, Meredith Long-Mol'in at (703) 604-8739
(Illcrcdilh.morin@dodig.mi I ),



                                          I:...t.   > (,   lJlv'!n-'
                                          Za~·IYG.. Davis
                                          Ass istant Inspector General
                                           for Audi t Policy and Oversight




                                         8
                             P'OR OP'FICIAl USE ON bY




                                           22
Appendix C. Defense Contract Audit Agency
Comments to Notice of Concern

                               DEFENS E CONTRACT AU DIT AGI:NCY
                                   OU'ARTM ENT OF DEFENSE
                                    11m .Oll"~ J. I(L';GMAN ROAn. surn: ".15
                                         tURT II'.LVOIII. v.. ,-..;,,,




                                                                                 May 24, 2011

    MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR POLICY AND
                     OVERSIGHT, OFFICE OF THE INSPECTOR GENERAL,
                     DEPARTMENT OF DEFENSE

    SUBJECf: Response: 10 Department of Defense Inspector General (DoDIG) Notice ofConcem
             _ Noncompliance Involving Auditor Jndcpendence at Defense Contmct Audit
             Agency (DCAA),           • BriUlCh Office

           Thank you for the opportunity 10 respond to the notice of concern.

            We agree with the DoDiG concern, dated May 6, 2011, about the Field Audit Office
    (F AO) management allowing an auditor to continue perfonning audits of a DoD contractor even
    after the swne management detcnnined that the auditor's indcpendcllCt: with that contraclOr had
    been impaired.

    IlODlG RfW mmendltinn,..

    1. Direct the              13ranch Office not to &5Sign any new audits of the contractor to the
       auditor who has an independence impainnent associated with that contntctor.

       OCAA Response. Conc ur. Un May 6, Zllll,!be t AU was directed to remove the auditor
       from ClUTent worli: related 10 the subject contraclOr and 10 not assign him future worli: at that
       contractor. We confinned that the auditor has bun removed from all work at this contractor.

    2. Reassign the Floor Cheek and Paid Voucher audits referenced above to another OCAA
       region for completion.

       OCAA Response. Conc ur. lbe DoDIG agreed with our alternative plan of using an audit
       team  within the Western RC2ion that had no prior involvement witll this issue. On May 12.
       2011 , we finalized the establishment ofan audit team 10 pcrfonn this fWlCtioo. TIle auditor,
       supervisory audilor,                                                           not associated
       with the management chain of ootnmW1d                                      In IkIdition, neither
       the current Deputy Regional DIrector OOr the Regional DireclOr was implicated in the nolie<:
       of cone em.




                                                      23
                                                                                    May 24, 2011
SUBJECT:
             R:~:7.~"~o.~~~tOfDe~~fu~'~~)~~:~~~~~~~(~:~~~j:~:~;~
             Agency                        ~:
3   Re5Cind Audit Report No. _     20IOE17100001, dated March 24, 2011, regarding an audit
    ofa Tennination Proposal, and advise the requester in writing not to I'dy on its 1l!S... lIs.

    DCAA Knponn . Concur. We rescinded the subject audit report and advised tlte requester
    in writing nol to rely on its result on May 9, 2011.

4. Direcl another DCAA Region to Je·perfonn and supervise another audit orthe Termination
   Proposal without relying On any work perfonned by the auditor.

    DCAA R""JKlD!~. Concur. The DoDiG agreed with our alternative plan of using an audit
    learn within the Western Region thai had no prior involvement with this issue. On May 12,
    2011, we finalized the establishment ofan audit team 10                        The auditor,
    supervisory auditor, FAO manager, and                                    arc not associated
    with the management chain                                                   addition, neither
                                                                               [0
    the current Deputy Regional Director 001' the Regional Director was implicated in the ootice
    ofconcem.

5. Issue a memorandum to the auditor which explains the rationale for determining that his
   independence had been impaired and the actions taken to resolve the impairment.

    DeAA Respo nu. C oncur. On May 20, 2011, we issued a memorandwn to the auditor that
    explained the rationale for determining that his indcpc:rxlence had been impaired and the
    act;nn. takcn Clf 10 hr: takcn 10 1"CVIlve Ihr: ;ml"';""cnl.

6. Issue an "Audit Alen" covering managcmcni"s responsibility for timely and appropriately
   resolving independence impairments in accordance with Gmerally Accepted Government
   Audit Standards (GAGAS) .

    DCAA Res ponse. Co ncur. We agree that by June 30, 2011, ,,-e ",ill issue guidance on
    management's responsibility for timely and appropriately resolving GAGAS independence
    impairments.

7. Assess the adequacy of tho: Agency's ongoing wining and procedures for resolving
   independence impairments in acoordance with Generally Accepted Government Audit
   Standards, and make improvements to help ensure funu-e oompliance.

    OCAA Respon se. Conc ur. We will oomplete the IlSsessrnent of\ho: training and procedures
    by July 31, 2011. By September 30, 20] I, we will implement any improvements identified
    to help ensure future oompliance.


                                                2




                                                24
                                                                              May 24, 2011
SUBJECT: Response 10 Departmenl ofDefeme Inspector General (DoOIG) Notice ofConcem
         ~ Noncompliano:.:e Involving Auditor IndepeooCTl«' at Defense Contract Audit
         Agency (OCAA),             • Bl1lfICh Office

S, Develop and issue formal pol icies and proo:;WllIl'S on the proper handling of wmplainl:s from
   contractors,

   n CAA Hr'l pon st, C llncur, We will develnp and issue suidance for handling cnmplaints
   from conlmi;tor by Septembl:r 30, 2011.

9, Consider appropriate administrative IICtion for the failW'C to:
   a. resolve an independence impairment in ac<.:ordllncc with Generally Accepted Government
      Auditing Standards and Agency policy.
   h. investigate B 000 contractQr's allegations Qfaudit miS(:onduct.

   n CAA Re!ponsc. COD cur. By September 30, 2011, we will COItsider appropriate
   administrative action for the persons involved in the failure to appropriately resolve the
   independence impairment. On May 12, 201 I, the OCAA Internal Review Directorate
   establ ished a formal case to investigate the original allegations the contractor made: aga inst
   the auditor.

   Please direct any questions or concerns 10 the undersigned at (703) 761-3200.


                                                       ~
                                                     nattiCk  J. Fitzgerald
                                                       Director




                                                 3




                                                 25
